HHS/OIG-Audit--"Financial Audit of the National Institutes of Health's Management and Service and Supply Fund, (A-15-91-00044)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Financial Audit of the National Institutes of Health's Management and
Service and Supply Funds," (A-15-91-00044)
July 31, 1992
Complete Text of Report is available in PDF format
(5.16 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report prepared by Clifton, Gunderson and Company (CGC), certified
public accountants, presents the results of their audit of the National Institutes
of Health's Management and Service and Supply Funds (Funds) financial statements
for the fiscal year ended 1991. The CGC did not express an opinion on the financial
statements because of concerns about amounts shown for (1) inventory, (2) property,
plant and equipment and related accumulated depreciation, (3) accounts payable,
and (4) accrued expenses. They found significant internal control weaknesses,
and noncompliance with Title 2--the General Accounting Office's Policy and Procedures
Manual for Guidance to Federal Agencies (which is incorporated in the Department's
accounting guidance).